NO. 19-516
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2019
♦
NOLAN ESPINDA,
Hawaii Department of Public Safety Director, et al.
Petitioners
- vs ROYCE C. GOUVEIA
Respondent
♦
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Ninth Circuit
♦
RESPONDENT’S
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
FOR

BRIEF IN OPPOSITION SUBMITTED ON OCTOBER 31, 2019
♦

PETER C. WOLFF, JR.
Federal Public Defender
District of Hawaii
300 Ala Moana Boulevard, Suite 7104
Honolulu, Hawaii 96850
Telephone: (808) 541-2521
Facsimile: (808) 541-3545
Counsel of Record for Respondent
ROYCE C. GOUVEIA

NO. 19-516
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2019
♦
NOLAN ESPINDA,
Hawaii Department of Public Safety Director, et al.
Petitioners
- vs ROYCE C. GOUVEIA
Respondent
♦
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to 18 USC §3006A(d)(6) and Rule 39 of this Court, respondent seeks
leave to proceed in this matter in forma pauperis. Respondent was represented by
present counsel of record, who was appointed pursuant to 18 USC §3006A, in the
United States Court of Appeals for the Ninth Circuit and in the United States
District Court for the District of Hawaii.
Respectfully submitted November 5, 2019.
/s/ Peter C. Wolff, Jr.
PETER C. WOLFF, JR.
Federal Public Defender
District of Hawaii
300 Ala Moana Boulevard, Suite 7104
Honolulu, Hawaii 96850
Telephone: (808) 541-2521
Facsimile: (808) 541-3545
Counsel of Record for Respondent
ROYCE C. GOUVEIA

